                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00274-224




    Combined Assessment Program 

            Review of the 

          VA Pacific Islands 

         Health Care System 

          Honolulu, Hawaii 





June 19, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Pacific Islands Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PSB            Professional Standards Board
                 QM             quality management
                 RRTP           residential rehabilitation treatment program
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             7

  Coordination of Care – HPC ...................................................................................                   8

  Long-Term Home Oxygen Therapy ........................................................................                           9

  Nurse Staffing .........................................................................................................        10

  Preventable Pulmonary Embolism ..........................................................................                       11

  MH RRTP ...............................................................................................................         12

  Continuity of Care ...................................................................................................          14


Appendixes
  A. Facility Profile ....................................................................................................        15

  B. VHA Patient Satisfaction Survey .......................................................................                      16

  C. VISN Director Comments ..................................................................................                    17

  D. Acting Facility Director Comments ....................................................................                       18

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 18, 2013.

Review Results: The review covered nine activities.                               We    made      no
recommendations in the following five activities:

   Environment of Care

   Coordination of Care – Hospice and Palliative Care

   Preventable Pulmonary Embolism

   Mental Health Residential Rehabilitation Treatment Program

   Continuity of Care

The facility’s reported accomplishment was the creation of the VA Pacific Islands Call
Center to enhance veterans’ ability to contact the facility. The call center is one of the
few VA call centers to have a pharmacy technician available to assist veterans with their
medication refills and the only VA call center in the nation to have a veterans benefits
representative to address benefit questions and concerns.

Recommendations: We made recommendations in the following four activities:
Quality Management: Consistently report results of Focused Professional Practice
Evaluations for newly hired licensed independent practitioners to the Professional
Standards Board.

Medication Management – Controlled Substances Inspections: Ensure controlled
substances inspections are randomly scheduled with no distinguishable patterns, and
monitor compliance.

Long-Term Home Oxygen Therapy: Re-evaluate home oxygen program patients for
home oxygen therapy annually after the first year.

Nurse Staffing: Monitor          the      staffing   methodology   that   was    implemented      in
November 2012.




VA OIG Office of Healthcare Inspections                                                             i
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 17–20, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following nine activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Long-Term Home Oxygen Therapy

   	   Nurse Staffing

   	   Preventable Pulmonary Embolism

   	   MH RRTP

   	   Continuity of Care

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
March 22, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                            1
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Program Review of the VA Pacific Islands Health Care System, Honolulu, Hawaii,
Report No. 09-01643-170, July 23, 2009).

During this review, we presented crime awareness briefings for 181 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
171 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

VA Pacific Islands Call Center
In order to improve telephone functionality and access to care, the facility chartered a
process action team to address the dropped call rate and number of unreturned
telephone calls. The team created a “Voice of the Veteran” survey and conducted
interviews with veterans to assess the difficulties they were having in contacting the
facility via the telephone system. When the project was initiated, the dropped call rate
was 29 percent with an average of 130 unreturned phone calls per day.

Based upon the team’s findings, the facility created the VA Pacific Islands Call Center.
The call center is staffed with a manager, pharmacist, pharmacy technician, five medical
support assistants, two telephone operators, three registered nurses, and a veterans
benefits representative. Since the initiation of the call center, the dropped call rate has
decreased to 6 percent with less than 10 unreturned telephone calls per day.
Additionally, calls are being answered within 30 to 60 seconds. The call center is one of
the few VA call centers to have a pharmacy technician available to assist veterans with
their medication refills and the only VA call center in the nation to have a veterans
benefits representative to address benefit questions and concerns.




VA OIG Office of Healthcare Inspections                                                            2
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



                           Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Items that did not apply to this facility
are marked “NA.”

 NC                   Areas Reviewed                                            Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
  X    FPPEs for newly hired licensed independent          Eight profiles reviewed:
       practitioners complied with selected                 Results of seven of the eight FPPEs
       requirements.                                         completed were not reported to the PSB.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.




VA OIG Office of Healthcare Inspections                                                                      3
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


 NC             Areas Reviewed (continued)                                      Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 NA    Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that results of FPPEs for
newly hired licensed independent practitioners are consistently reported to the PSB.




VA OIG Office of Healthcare Inspections                                                                      4
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

We inspected the 3B2 inpatient MH unit, the ambulatory care clinic, the urgent care clinic, the
women’s health clinic, the physical therapy and occupational therapy clinic, and the CLC.
Additionally, we reviewed relevant documents and conversed with key employees and
managers. The table below shows the areas reviewed for this topic. Items that did not apply to
this facility are marked “NA.” The facility generally met requirements. We made no
recommendations.

 NC           Areas Reviewed for General EOC                                   Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       The facility had a policy that detailed cleaning
       of equipment between patients.
       Patient care areas were clean.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
         Areas Reviewed for the Women’s Health
                             Clinic
       The Women Veterans Program Manager
       completed required annual EOC evaluations,
       and the facility tracked women’s health-related
       deficiencies to closure.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.



VA OIG Office of Healthcare Inspections                                                                      5
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


 NC      Areas Reviewed for the Women’s Health                                 Findings
                      Clinic (continued)
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
        Areas Reviewed for Physical Medicine and
               Rehabilitation Therapy Clinics
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                      6
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
two CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                          Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected          Documentation of two CS areas inspected
       in accordance with VHA requirements, and           during the past 6 months reviewed:
       inspections included all required elements.         In one of the areas, distinguishable patterns
                                                            were identified, and most inspections were
                                                            performed on the second Tuesday of the
                                                            month.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

2. We recommended that processes be strengthened to ensure that inspections are randomly
scheduled with no distinguishable patterns and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                      7
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Items that did not apply to this facility are marked “NA.” The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                         Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.


VA OIG Office of Healthcare Inspections                                                                      8
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated Home Respiratory Care Program.5

We reviewed relevant documents and 35 EHRs of patients enrolled in the home oxygen
program, and we conversed with key employees. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Items that did not apply to this facility
are marked “NA.”

 NC                      Areas Reviewed                                        Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
       The Chief of Staff reviewed Home Respiratory
       Care Program activities at least quarterly.
       The facility had established a home
       respiratory care team.
       Contracts for oxygen delivery contained all
       required elements and were monitored
       quarterly.
 X     Home oxygen program patients had active             Eighteen EHRs (51 percent) contained no
       orders/prescriptions for home oxygen and             documentation of a re-evaluation after the first
       were re-evaluated for home oxygen therapy            year.
       annually after the first year.
 NA    Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
 NA    NC high-risk patients were identified and
       referred to a multidisciplinary clinical
       committee for review.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

3. We recommended that processes be strengthened to ensure that home oxygen program
patients are re-evaluated for home oxygen therapy annually after the first year.




VA OIG Office of Healthcare Inspections                                                                      9
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two selected units
(acute care and long-term care).6

We reviewed relevant documents and conversed with key employees. The table below shows
the areas reviewed for this topic. The area marked as NC needed improvement. Items that did
not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                          Findings
       The unit-based expert panels followed the
       required processes.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
 X     The facility completed the required steps to        Expert panels were not convened until
       develop a nurse staffing methodology by              November 23, 2012.
       September 30, 2011.
       The selected units’ actual nursing hours per
       patient day met or exceeded the target
       nursing hours per patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that nursing managers monitor the staffing methodology that was
implemented in November 2012.




VA OIG Office of Healthcare Inspections                                                                     10
                                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Preventable Pulmonary Embolism
The purpose of this review was to evaluate the care provided to patients who were treated at the
facility and developed potentially preventable pulmonary embolism.7

We reviewed relevant documents and six EHRs of patients with confirmed diagnoses of
pulmonary embolisma January 1–June 30, 2012. We also conversed with key employees. The
table below shows the areas reviewed for this topic. Items that did not apply to this facility are
marked “NA.” The facility generally met requirements. We made no recommendations.

    NC                   Areas Reviewed                                                     Findings
         Patients with potentially preventable
         pulmonary emboli received appropriate
         anticoagulation medication prior to the event.
         No additional quality of care issues were
         identified with the patients’ care.
         The facility complied with any additional
         elements required by VHA or local
         policy/protocols.




a
 A sudden blockage in a lung artery usually caused by a blood clot that travels to the lung from a vein in the body, most
commonly in the legs.


VA OIG Office of Healthcare Inspections                                                                                     11
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


MH RRTP
The purpose of this review was to determine whether the facility’s Post-Traumatic Stress
Disorder RRTP complied with selected EOC requirements.8

We reviewed relevant documents, inspected one unit, and conversed with key employees. The
table below shows the areas reviewed for this topic. Items that did not apply to this facility are
marked “NA.” The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                          Findings
       The residential environment was clean and in
       good repair.
 NA    Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
       Monthly MH RRTP self-inspections were
       conducted, documented, and included all
       required elements, work orders were
       submitted for items needing repair, and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
 NA    In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.




VA OIG Office of Healthcare Inspections                                                                     12
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


 NC            Areas Reviewed (continued)                                      Findings
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     13
                                          CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Continuity of Care
The purpose of this review was to evaluate whether information from patients’ community or
Tripler Army Medical Center hospitalizations at VA expense was available to facility providers.9
Such communication is essential to continuity of care and optimal patient outcomes.

We reviewed relevant documents and the EHRs of 30 patients who had been hospitalized at VA
expense in the local community or at Tripler Army Medical Center during September and
October 2012, and we conversed with key employees. The table below shows the areas
reviewed for this topic. Items that did not apply to this facility are marked “NA.” The facility
generally met requirements. We made no recommendations.

 NC                   Areas Reviewed                                           Findings
       Clinical information was available to the
       primary care team for the clinic visit
       subsequent to the hospitalization.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     14
                                       CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                                Appendix A

                       Facility Profile (Honolulu/459) FY 2012b
Type of Organization                                                            Secondary
Complexity Level                                                                3-Low complexity
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $222.2
Number of:
    Unique Patients                                                            28,345
    Outpatient Visits                                                          226,680
    Unique Employeesc (as of last pay period in
        FY 2012)                                                                697
Type and Number of Operating Beds:
    Hospital                                                                   16
    CLC                                                                        60
    MH                                                                         16
Average Daily Census: (through August 2012)
    Hospital                                                                   9
    CLC                                                                        48
    MH                                                                         11
Number of Community Based Outpatient Clinics                                    6
Location(s)/Station Number(s)                                                   Maui, HI/459GA
                                                                                Hilo, HI/459GB
                                                                                Kona, HI/459GC
                                                                                Kauai, HI/459GD
                                                                                Agna Heights,
                                                                                  Guam/459GE
                                                                                Pago Pago, American
                                                                                  Samoa/459GF
VISN Number                                                                     21




b
    All data is for FY 2012 except where noted.

c
    Unique employees involved in direct medical care (cost center 8200). 



VA OIG Office of Healthcare Inspections                                                                  15
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                         Appendix B

                        VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                 Inpatient Scores                            Outpatient Scores
                     FY 2012                                     FY 2012
              Inpatient      Inpatient      Outpatient    Outpatient     Outpatient     Outpatient
              Score          Score          Score         Score          Score          Score
              Quarters 1–2   Quarters 3–4   Quarter 1     Quarter 2      Quarter 3      Quarter 4
Facility       *              *             57.7           43.3          53.3           52.0
VISN           70.1           70.3          58.1           55.8          57.4           59.1
VHA            63.9           65.0          55.0           54.7          54.3           55.0
 * A score is not reported because there were fewer than 30 responses.




VA OIG Office of Healthcare Inspections                                                              16
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                  Memorandum


       Date: 	         June 5, 2013

       From: 	         Director, Sierra Pacific Network (10N21)

       Subject: 	      CAP Review of the VA Pacific Islands Health Care
                       System, Honolulu, HI

       To: 	           Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       Thank you for the opportunity to review the draft OIG CAP report from
       your recent site visit conducted March 19–21, 2013. Attached you will find
       the action plan developed by the facility in response to the four
       recommendations received.

       If you have any questions please contact, Terry Sanders, Deputy Quality
       Manager for Network 21 at (707) 562-8370.




       Sheila M. Cullen




VA OIG Office of Healthcare Inspections                                                           17
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                         Appendix D
                      Acting Facility Director Comments



               Department of
               Veterans Affairs 	                                  Memorandum


       Date: 	         June 3, 2013

       From: 	         Acting Director, VA Pacific Islands Health Care System
                       (459/00)

       Subject: 	      CAP Review of the VA Pacific Islands Health Care
                       System, Honolulu, HI

       To: 	           Director, Sierra Pacific Network (10N21)

       Enclosed is the VA Pacific Island Health Care System after action
       report.  Responses to the four CAP Review of the VAPIHCS
       recommendations which resulted from the survey conducted
       March 19-21, 2013 are included.

       If you have any questions pertaining to this after action report, please
       contact Jacqueline R. White, Chief Quality Management at telephone
       (808) 433-0683.

       Sincerely,




VA OIG Office of Healthcare Inspections                                                           18
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
results of FPPEs for newly hired licensed independent practitioners are consistently
reported to the PSB.

Concur

Target date for completion: August 7, 2013

Facility response: Standing FPPE agenda items will be created and remain on all future
PSB agendas. All Associate Chief of Staff (ACOS) members will be required to report
to the PSB the 1st day a new FPPE has been initiated. The ACOS will also indicate the
anticipated end of the FPPE and the expected presentation to the PSB (next available
PSB following the FPPE completion. A tracking log will be created with all practitioners
under FPPE listing the beginning, end and expected presentation date. ACOSs will
also be asked to report any adjustments to FPPE dates to ensure PSB is looking for a
report when indicated. This process ensure 100% awareness and tracking by PSB.

Recommendation 2. We recommended that processes be strengthened to ensure that
inspections are randomly scheduled with no distinguishable patterns and that
compliance be monitored.

Concur

Target date for completion: August 31, 2013

Facility response: The Controlled Substance Coordinator developed a new controlled
inspection roster so that there are no distinguishable patterns and has put it into place.
This process will be reviewed by the Chief of Pharmacy and Alternate Controlled
Substance Coordinator on a quarterly basis to review the dates and times Controlled
Substance Reports were conducted to see if there are any distinguishable patterns to
the surveys conducted. Their findings will be included in the Quarterly Controlled
Substance Report to the Director.

Recommendation 3. We recommended that processes be strengthened to ensure that
home oxygen program patients are re-evaluated for home oxygen therapy annually after
the first year.

Concur

Target date for completion: August 31, 2013


VA OIG Office of Healthcare Inspections                                                           19
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI


Facility response: All prescribing providers were re-educated by the Chair of the Oxygen
Committee indicating that expired oxygen prescriptions must be renewed timely and
when they are not this could jeopardize the continuation of the oxygen for the Veteran.
On a monthly basis, the Chief of Prosthetics reviews the oxygen list for oxygen
prescriptions that will be expiring the following month. A list of upcoming expiring
oxygen prescriptions is provided to prescribing providers, the chair of the Oxygen
Committee, QMS, and the Primary Care Leadership if prescriptions are not renewed on
time. Quarterly, the Chair of the Oxygen Committee presents a report on oxygen
renewal compliance to the Executive Committee of the Medical Staff. In addition,
Oxygen Committee minutes are submitted to the Chief of Staff through the ACOS PC
and Committee Chairperson for review and sign off.

Recommendation 4. We recommended that nursing managers monitor the staffing
methodology that was implemented in November 2012.

Concur

Target date for completion: August 31, 2013

Facility response: The CLC Nurse Manager tracks CLC Nurse Staffing patterns utilizing
tools provided by the National Staffing Methodology initiative and other information from
the DSS database. During FY 2013, this data has been tracked on a monthly basis.
This information is reported monthly to the ADPCS/NE and the Unit-Based Staffing
Methodology Expert Panel. Suggested next steps are: 1) Facility-Based Staffing
Methodology Expert Panel. 2) A Meeting will be convened of the Unit-Based Staffing
Methodology Expert Panel in July to analyze the data and provide input to the CLC
Staffing Annual Report.      3) CLC Staffing Methodology Annual Report to the
Facility-Based Staffing Methodology will be completed by Expert Panel of the
Facility-Based Staffing Methodology Expert Panel in August yearly to analyze the CLC
Staffing Methodology Annual Report and make recommendations. This annual report
will be reported to the ADPCS/NE and other QUAD members.




VA OIG Office of Healthcare Inspections                                                           20
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Elizabeth Burns, MSSW, Team Leader
Contributors            Richard Clark
                        Deborah Howard, RN, MSN
                        Judy Montano, MS
                        Glen Pickens, RN, MHSM
                        Katrina Young, RN, MSHL
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Monika Gottlieb, MD
                        Jerry Herbers, MD
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           21
                                CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Sierra Pacific Network (10N21)
Director, VA Pacific Islands Health Care System (459/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mazie K. Hirono, Brian Schatz
U.S. House of Representatives: Tulsi Gabbard, Colleen Hanabusa


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           22
                                       CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI
                                                                                                Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008;
    VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VA National Center for Patient Safety, “Ceiling mounted patient lift installations,” Patient Safety Alert 10-07,
    March 22, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
    May 1, 2006.
	 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.
6
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                         23
                                         CAP Review of the VA Pacific Islands Health Care System, Honolulu, HI



7
     The reference used for this topic was: 

 VHA Office of Analytics and Business Intelligence, External Peer Review Technical Manual, FY2012 quarter 4,

   June 15, 2012, p. 80–98. 
8
  References used for this topic were:
 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
   Protection Association.
9
  The reference used for this topic was:
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 




VA OIG Office of Healthcare Inspections                                                                     24
